CERTIFICATE OF SERVICE
NO. 21-271
Benitez
Petitioner,
v.
Charlotte-Mecklenburg Hospital Authority
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
ANTITRUST AND HEALTH POLICY SCHOLARS AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER,
by mailing three (3) true and correct copies of the same by USPS Priority mail, prepaid for delivery to
the following address.
Eric F. Citron
Goldstein & Russell, P.C.
7475 Wisconsin Ave., Suite 850
Bethesda, MD 20814
(202) 362-0636
ecitron@goldsteinrussell.com
Counsel for Raymond Benitez

James P. Cooney III
Womble Bond Dickinson (US) LLP
301 S. College Street
Suite 3500
Charlotte, NC 28202
(704) 331-4980
jim.cooney@wbd-us.com
Counsel for Charlotte Mecklenburg Hospital Authority

Lucas DeDeus

September 24, 2021
SCP Tracking: Cecere-6035 McCommas Blvd.-Cover Cream

